No. 20-276

In the Supreme Court of the United States
CHRISTOPHER M. GIBSON,
Petitioner,
v.
SECURITIES AND EXCHANGE COMMISSION, et al.,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Eleventh Circuit
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that on October 5, 2020 I caused
the BRIEF OF AMICUS CURIAE SOUTHEASTERN LEGAL FOUNDATION IN
SUPPORT OF PETITIONER in the above-captioned case to be served upon the
following by depositing the document with UPS, with no less than first-class postage
prepaid, for delivery within 3 calendar days, addressed to counsel of record at the
proper address.
Gregory George Garre
Latham & Watkins LLP
555 11th Street NW
Suite 1000
Washington, DC 20004
gregory.garre@lw.com
Counsel for Petitioner

s/John J. Park Jr.
___________________________________
John J. Park, Jr.
616-B Green Street
Gainesville, GA 30501
(470) 892-6444
jjp@jackparklaw.com
Counsel of Record for Amicus Curiae
Southeastern Legal Foundation

Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents

